OIG Investigative Reports, Fargo, ND., May 25,, 2012 - Spirit Lake Tribal Member Sentenced for Embezzlement
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
District of North Dakota
FOR IMMEDIATE RELEASE
May 25, 2012
Spirit Lake Tribal Member Sentenced for Embezzlement
FARGO - U.S. Attorney Timothy Q. Purdon announced that on May 25, 2012,William Kazena, 68, of Fort Totten, N.D., was sentenced before U.S. District Judge Ralph R. Erickson on a charge of conspiracy to embezzle from an Indian Tribal organization.
On Jan. 11, 2012, Kazena, as part of the conspiracy, pleaded guilty to illegally accepting benefits from the Spirit Lake Vocational Rehabilitation Program, which he acknowledged he was not entitled to receive. Kazena's wife, Martina, was the director of the program and his daughter, Tanya Jetty, was the compliance officer. Martina Kazena pleaded guilty to the conspiracy on Jan. 11, 2012, and will be sentenced on July 23, 2012. Tanya Jetty pleaded guilty to the conspiracy on May 8, 2012, and will be sentenced on
Aug. 27, 2012.
Judge Erickson sentenced Kazena to four years of probation. Kazena was ordered to pay restitution in the amount of $22,349.63 to the U.S. Department of Education and to pay a $100 special assessment to the Crime Victim's Fund.
The case was investigated by the Federal Bureau of Investigation and U.S. Department of Education - Office of Inspector General.
Assistant U.S. Attorneys Janice M. Morley and Bret Shasky prosecuted the case.
Top
Printable view
Last Modified: 05/31/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov